HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Utah," (A-07-07-03098)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in Utah," (A-07-07-03098)
July 1, 2008
Complete Text of Report is available in PDF format (761 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Utahs Medicaid drug rebate
program, we found that the State had not corrected the control weaknesses for
any of the findings identified in our previous audit.  Manufacturers may make
their outpatient drugs eligible for Federal Medicaid funding by entering into a
rebate agreement with the Centers for Medicare & Medicaid Services (CMS) and
paying quarterly rebates to the States.  In addition, the State had not
established controls over and accountability for collecting rebates on
single-source drugs administered by physicians.  Further, the State had not
reported rebates collected for single-source drugs administered by physicians
totaling $389,000.
We recommended that the State (1) develop and follow
policies and procedures to maintain a general ledger accounts receivable control
account, (2) develop and follow policies and procedures to reconcile the general
ledger control account to the subsidiary ledgers/records and to the Form
CMS-64.9R, (3) develop and follow policies and procedures to track and account
for all $0 unit rebate amounts, (4) develop and follow policies and procedures
to estimate and accrue interest on all overdue rebate balances, (5) develop and
follow policies and procedures to make use of the States hearing mechanism to
resolve disputes after 60 days, (6) develop and follow policies and procedures
to ensure that records are kept for an appropriate period, (7) develop and
follow policies and procedures to establish controls over and accountability for
collecting rebates on single-source drugs administered by physicians, and (8)
refund to the Federal Government $389,000 ($280,000 Federal share) in rebates
for single-source drugs administered by physicians
that were collected but not reported.
The State agreed with all our recommendations except
those regarding (1) developing and following policies and procedures to estimate
and accrue interest on all overdue rebate balances and (2) developing and
following policies and procedures to ensure that records are kept for an
appropriate period.